<html>
<title> - VOICES LEADING THE NEXT GENERATION ON THE GLOBAL CLIMATE CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
    VOICES LEADING THE NEXT GENERATION ON THE GLOBAL CLIMATE CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 18, 2019

                               __________

                           Serial No. 116-62

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                      or http://www.govinfo.gov 
                            
                            
                            
                            ______

                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-705 PDF              WASHINGTON : 2019
                           
                            
                            
                            
                            
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

 
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
THEODORE DEUTCH, Florida             ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island        JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas                FRANCIS ROONEY, Florida
DINA TITUS, Nevada                   BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             GREG PENCE, Indiana
DAVID TRONE, Maryland                RON WRIGHT, Texas
JIM COSTA, California                MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas              TIM BURCHETT, Tennessee

            
                                     
                                     

                    Gabrielle Gould, Staff Director
                 INFORMATION REFERRED TO FOR THE RECORD

Information referred from Mr. Graves.............................     8

                               WITNESSES

Thunberg, Ms. Greta, Founder, Fridays for Future.................    11
Margolin, Ms. Jamie, Co-Founder, This is Zero Hour, Plaintiff, 
  Piper v. State of Washington...................................    14
Barrett, Mr. Vic, Fellow, Alliance for Climate Education, 
  Plaintiff, Juliana v. United States............................    20
Backer, Mr. Benji, President, American Conservation Coalition....    47

                                APPENDIX

Hearing Notice...................................................    65
Hearing Minutes..................................................    66
Hearing Attendance...............................................    67

       STATEMENTS FOR THE RECORD SUBMITTED FROM COMMITTEE MEMBERS

Statement submitted for the record from Representative Costa.....    68

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Summary of Policymakers..........................................    69
Court case.......................................................    92
Submission for the record from Representative Carter.............   100


    VOICES LEADING THE NEXT GENERATION ON THE GLOBAL CLIMATE CRISIS

                     Wednesday, September 18, 2019

                       House of Representatives,

                    Subcommittee on Europe, Eurasia,

                      Energy, and the Environment,

              Committee on Foreign Affairs, Joint With the

                Select Committee on the Climate Crisis,

                                     Washington, DC

    The committees met, pursuant to notice, at 10:11 a.m., in 
room 2172, Rayburn House Office Building, Hon. William R. 
Keating (chairman of the subcommittee) presiding.
    Mr. Keating. The hearing will come to order. Chairman Engel 
is joining us. We are here joined by the Select Committee on 
Climate Crisis and an esteemed panel of witnesses for this 
hearing on ``The Voices Leading the Next Generation on the 
Global Climate Crisis.''
    I know a few of our witnesses have a hard stop at 11:30 in 
order to get to their next event advocating on these issues, so 
I will just ask that all the members keep their questioning to 
5 minutes or less so we can fit in as many members as possible.
    Without objection, all the members may have 5 days to 
submit statements, questions, extraneous materials for the 
record, subject to the length limitation in the rules.
    And I would just like to call on the chairman of the full 
committee, who has a few words to offer.
    Chairman Engel.
    Mr. Engel. Good morning, everyone. I just wanted to invite 
everyone to come to the Foreign Affairs Committee, and by the 
looks of it, you are all here. I want to welcome everybody.
    Climate change is certainly something that is so important, 
and the aggravating thing about it is that there are so many 
who still deny it. So I look forward to listening to what our 
young people are saying today because the world is really their 
future, and we owe it to them to do what we can now to make 
sure that the world is saved.
    And climate change is certainly something that is 
happening, and if we do not do anything about it, it will 
certainly imperil future generations.
    And I am just happy to welcome everybody to the Foreign 
Affairs Committee room. Thank you.
    Mr. Keating. I would like to thank the chairman.
    I would just like to recognize myself for 5 minutes for an 
opening statement.
    Our panel represents the next generation of leaders, and so 
naturally, we are speaking to the future. However, let us be 
clear, we are also speaking to the present. We are witnessing 
the effects of climate change daily, whether it is storms, 
forest fires, floods, and other disasters occurring with 
increasing intensity and frequency, increased migration due to 
sea level rise, threats to food and water safety. This is the 
reality we are facing right now because of climate change.
    Regardless of where we live, we all see it when we go home. 
I see it every time I go home. My district is in southeastern 
Massachusetts and has one of the longest coastlines in the 
country and includes island communities. On Cape Cod, we are 
anticipating a sea level rise of 1 to 2 meters by 2100 and 3 to 
12 meters in the next few hundred years. Erosion and storm 
damage cost families and businesses trying to live with more 
than they can afford as every storm approaches, and with each 
storm we are also worried about the cost to lives as well.
    Our historic fishing and lobster industries are threatened 
by increasing ocean acidification and rising ocean 
temperatures. Our State and local governments are under immense 
pressure to address not only sea level rise but air quality 
issues. And in spite of having some of the best scientists and 
researchers right in that area, in UMass and Woods Hole, it is 
an incredible challenge.
    There have been efforts spanning generations now in my 
district to diversify our energy supply, offshore wind, solar 
power that will bring in new jobs, yet there are still major 
gaps in access for our communities and a real struggle to 
overcome the political and bureaucratic obstacles that go with 
making necessary changes to how things are currently.
    There must be leadership in addressing climate change 
because we, and especially your generation, cannot afford for 
things not to change. This is a global issue, and the biggest 
polluters are going to be needed to make big changes to do 
their part.
    But we need to be honest with ourselves as leaders. So far, 
our generation has failed to adequately address our climate 
crisis. This failure is not fatal, yet our failure to change 
will be.
    Change happens through leadership. We would not be in this 
situation right now, our witnesses would be safely and happily 
in school pursuing their dreams and not protesting and pushing 
their government to act if everyone was doing their part.
    America knows how to lead in a crisis, and it is high time 
we pick ourselves up and get back to this fight to bring the 
rest of the world with us, because waiting for other countries 
to do the right thing is making a bad bet on our future.
    There is so much we could and should do right now in our 
country. We have bright minds to engineer solutions to the 
future. America has shaped revolutions in industry time and 
time again, and it has made our country better off every time.
    Now the stakes are so much higher, and in spite of all our 
resources and ingenuity, the one thing we do not have is time. 
The IPCC report warns us that without cuts in carbon emissions, 
the world could see an average sea level rise of 62 centimeters 
over the course of a lifetime of people born today. That is 
over 2 feet. And scientists are gravely concerned that sea 
level rise in the next 100 years could be even faster than in 
the hundreds of years that preceded it.
    I would like to thank our witnesses, extraordinary young 
leaders fortified with scientific research, for being here. It 
is regrettable they have to be. The Paris agreement should have 
been reached decades ago, and we should have been well on our 
way by now toward far more aggressive targets, giving 
communities and industries the time to adapt and giving you a 
much more hopeful outlook on the future.
    But here we are, and I hope your testimony today will 
galvanize us to act now before we are truly out of time.
    Ranking Member Adam Kinzinger for his opening statement.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Thank you all for being here. We appreciate it.
    Given the high level of interest in this hearing, the late 
start, and the many people that have questions, I will be 
brief.
    Climate change is real, and the best way to combat it is by 
reducing not only our Nation's carbon emission, but that of the 
rest of the world.
    The changes we are seeing in the climate pose both short-
and long-term challenges, and I believe they can addressed in 
two major ways.
    First, we need diversity in our energy sources. Energy 
diversity is energy security. Similar to one's own personal 
investment strategies, this Nation cannot afford to put all its 
eggs in one basket. If you are looking to invest, you do not 
put all your savings into one stock and let it ride. You 
diversify your investments in mutual funds, bonds, real estate, 
et cetera.
    Second, we need to support market-driven innovations to 
develop new clean energy technologies that will put the United 
States at the forefront of environmental technology.
    Illinois' 16th congressional District is a great example of 
what this market-driven strategy would look like. My district 
is home to four nuclear reactors which serve--actually, it is 
eight reactors, four plants--which serve as the most abundant, 
clean, and stable energy source on the planet, as well as 
hundreds of wind turbines, solar panels, and geothermal 
sources. These diverse sources not only provide year-round 
reliable clean energy, but also have produced high-paying jobs 
for my constituents.
    Around the world, many nations are implementing strategies 
to combat climate change, and nuclear must be part of that 
strategy. Unfortunately, some of our closest allies are taking 
their nuclear reactors offline at a time when we need low 
carbon energy sources.
    Meanwhile, as the West looks at options to combat climate 
change, we all know that China's global emissions continue to 
rise. For every ton of carbon dioxide reduced by the United 
States, China adds nearly four times as much. Today, the 
Chinese account for 30 percent of global emissions.
    While some may say that the United States needs to be the 
leader of combating climate change, I would say that we already 
are. Since 2005, global emissions have increased by 20 percent, 
but the United States' emissions have decreased by more than 
the next 12 emission-reducing countries combined.
    While reducing global emissions is vital, it is also 
important to note that there are over one billion people living 
without access to electricity. That is one billion people 
burning coal and wood for heat, one billion people living with 
increased risk for food-borne pathogens, one billion people 
living without access to basic sources of information like the 
radio.
    From a foreign policy standpoint, this should not be 
overlooked. The next global health crisis or conflict could 
easily come from these communities living in poverty. We must 
encourage other developed nations to reduce emissions while 
understanding that for economies just getting off the ground it 
is not entirely possible, at least not without substantial help 
from the United States and our allies.
    It is going to take major innovation and breakthroughs to 
not only reduce our emissions here at home, but also provide 
clean reliable power to those currently living without it.
    All Americans want to be good stewards of their 
environment. Tesla does not sell cars because of the sound 
system, and people do not put solar panels on their roof 
because they look good. Consumers, especially young people like 
we have today on our panel, want to know that policymakers 
share their values. I believe we do and that we will continue 
to see market-driven solutions that combat climate change and 
provide clean energy to the world.
    With that, I yield back the balance of my time.
    Mr. Keating. I thank the gentleman for his comments.
    The chair now recognizes the chair of the Select Committee 
on the Climate Crisis, Ms. Castor.
    Ms. Castor. Well, thank you, Chairman Keating, for hosting 
this hearing today. Thank you for including the members of the 
House Select Committee on the Climate Crisis. We are thrilled 
to be here.
    The youth climate movement has grabbed the attention of the 
world, and it is due to the hard work of many of the students 
in this room and many young people all across the planet.
    Did you all know that Congress' first major hearing on the 
climate crisis was in 1988? Congress has had plenty of 
opportunity to understand that burning fossil fuels warms the 
planet and alters the Earth's climate. Yet, scientists tell us 
that more than half of the carbon pollution that has been 
emitted into the atmosphere has occurred since that hearing in 
1988.
    I have been in Congress since 2007, and we have done some 
good things since then. We have raised auto efficiency 
standards. We have supported the dramatic expansion of wind and 
solar power. We have started to fund the kind of climate 
resilience to protect the places that we know and love. But it 
is not enough, not by a long shot.
    This year, under Speaker Pelosi's leadership, we passed our 
first major piece of climate legislation in 10 years. A 
bipartisan vote sent H.R. 9, Climate Action Now, to the Senate, 
where it awaits action. That Bill takes a commonsense approach 
of keeping the United States in the Paris climate agreement, 
because the U.S., we should not back down, we should not 
surrender, not in the face of the climate crisis. We need to 
take bold action now.
    Seventy percent of young people in America say they worry 
about climate change. I do not blame them. They are doing more 
than paying attention in science class. This generation is the 
most well-informed and connected generation in history, and 
everything they are learning has driven them to a new level of 
engagement.
    And students are asking policymakers a very powerful 
question: What is the point of going to school to learn about 
the climate crisis when your elected officials are not doing 
enough to act on it?
    The climate strike movement has united young people in all 
countries, all across the globe. They are cooperating to demand 
climate action, and they are asking us to cooperate with allies 
to cut carbon pollution and protect our communities.
    It is not lost on us that the United States is responsible 
for the biggest share of carbon pollution accumulated in the 
atmosphere to date, so we have a very serious responsibility to 
lead.
    But we are also the world's greatest engine of innovation, 
and we can do this. We have the solutions. Local communities 
and States have acted boldly, but a strong national climate 
action plan has been missing.
    We have heard from scientists in the select committee 
hearings, as we will hear from these young people today, that 
we must do more and that we do not have time to waste. Our 
answer has to be more than a promise to do better. Our 
solutions must equal the challenge before us.
    And I bet that 10 or 20 years from now, young people 
marching and striking today will be serving in the Congress, 
and we need to take bold action now because we cannot leave it 
up to them to clean up the mess that Congress has made.
    People say this next generation gives us hope, but that is 
not quite right, is it? This generation is giving us a job to 
do. The job is addressing the climate crisis. If we do our job, 
then we will be worthy of their hope because that means we will 
have started to create the future that they are fighting for.
    The select committee has a mandate to come up with an 
action plan for Congress, and we need your ideas. We want the 
ideas to come from all corners of this country and beyond. You 
can go to climatecrisis.house.gov/inforequest and tell us what 
your ideas are to solve the climate crisis. Not all good ideas 
emanate from Washington, DC. I think you know that.
    But it is only through cooperation, through coming together 
in our democracy that we can address the climate crisis. These 
young people are rising to the challenge, and we need to rise 
with them.
    Thank you, and I yield back.
    Mr. Keating. Thank you.
    The chair now recognizes the ranking member of the select 
committee, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    And I want to thank you all for being here today. Most 
importantly, I want to thank you for engaging in your 
government. Most young folks choose to not do that until many 
years later.
    I have three kids, and we often talk about some of the 
impacts that we have seen from climate change and sea rise in 
my home State of Louisiana where some of the sea rise impacts 
have exacerbated the loss of 2,000 square miles of our coast--
2,000 square miles. To put that in perspective, if that were 
the State of Rhode Island, we would have 49 States today in the 
United States, meaning the size of an entire State would be 
gone.
    I agree that we need to take aggressive action. I agree 
that we need to ensure that we move forward in a sustainable, 
rational manner. But I think it is also important that we 
ensure that we are moving forward based on facts.
    As Mr. Kinzinger said a few minutes ago, contrary to 
popular belief, the United States--the United States--is the 
country that has led the world in greenhouse gas reductions. As 
stated, we have reduced greenhouse gases more than the next 12 
countries combined. We have reduced them more than the next 12 
countries combined.
    Just last year, we stepped in and made more progress on 
adaptation and mitigation strategies than I believe any other 
year in this Nation's history, committing more dollars, moving 
toward establishing a resiliency standard, ensuring as we are 
rebuilding after disasters that we are building to a newer, 
higher standard, truly thinking about the future, ensuring that 
we are putting record dollars toward proactive efforts to 
ensure that our coastal communities and our river-based 
communities can be resilient, and continuing to move in this 
direction of greenhouse gas reductions.
    But I also think that we have got to stop this 
ridiculousness of operating myopically or operating as though 
the United States is in a vacuum. It is important to keep in 
mind that the Energy Information Administration projects that 
by 2030, 80 percent of global energy demands--80 percent--are 
going to be addressed using fossil fuels. This is the Energy 
Information Administration, not some type of partisan hack 
group. Eighty percent.
    Yet, just last week we had three bills designed to stop 
energy production in the United States. Over the weekend, we 
had attacks in Saudi Arabia. All that does is increase our 
reliance upon energy sources from other countries that have a 
lower safety standard and have a lower environmental standard.
    Records show, it is crystal clear, that when we import 
energy from other places, we actually increase the risk to the 
environment, increase the risk of spills, than when we have 
domestic energy production.
    I hear people talking about how we need to stop all fossil 
fuel utilization and stop all these emissions. Right now, as 
was stated, for every one ton of carbon emissions we produce in 
the United States, China has increased by four tons, more than 
offsetting all the reductions that we have had in the United 
States.
    Moving forward, even under the Paris Accords that folks are 
sitting here giving accolades to and saying is a great idea--
and I want to be clear, I support the U.S.' target in the Paris 
Accord--I think that signing onto an agreement and agreeing to 
something that allows for China to come in and have a 50 
percent increase, adding another 5 gigatons of greenhouse gas 
emissions annually by 2030, is inappropriate. It is moving in 
the wrong direction, not in the right direction.
    I also remain confounded reading letters like this one that 
says that we need to pressure the Organization of Petroleum 
Exporting Countries and cooperating countries to increase world 
oil supplies in order to lower prices at the pump. The impact 
of rising fuel prices on our economy and on family budgets is 
significant and widespread.
    This letter goes on to say the current run-up in world oil 
prices is effectively a tax on all American families' 
discretionary budget, except that the money goes to OPEC as 
opposed to the United States Treasury.
    So let me say again, this letter is advocating for 
increased world oil production because prices are too high. Who 
do you think signed this letter? Who do you think signed this 
letter? Think about it just a minute. Put a name in your head. 
This letter was sent by Senator Cantwell, Senator Menendez, 
Senator Chuck Schumer, and Senator Ed Markey just last year.
    I remain so confused by what it is that we are doing. What 
is our policy?
    And, Mr. Chairman, I ask unanimous consent that this be 
included in the record.
    Mr. Keating. Any objection?
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Graves. Look, my home State is at risk of its existence 
moving forward with sea rise, but we have got to make sure that 
we are moving forward in a rational manner that builds on 
successes and corrects failures rather than these confounding 
policies that make no sense.
    Yield back.
    Mr. Keating. Thank you.
    I will now introduce our witnesses.
    Greta Thunberg is from Sweden. She is a climate activist 
who helped build the Fridays for Future movement, where she 
began going on strike from school outside the Swedish 
Parliament on Fridays. She has spoken on the climate crisis 
before the EU Parliament.
    Welcome.
    Ms. Jamie Margolin is from Seattle, Washington. She is co-
founder and co-executive director of the Zero Hour, an 
international youth climate organization, founded in the summer 
of 2017. She is also a plaintiff in Piper v. State of 
Washington.
    Mr. Vic Barrett is from White Plains, New York. He is a 
fellow with the Alliance for Climate Education and a plaintiff 
in Juliana v. United States.
    Welcome.
    Mr. Benji Backer is from Appleton, Wisconsin. He is the 
president of the American Conservation Coalition, a nonprofit 
organization to educate and engage conservatives on climate 
change.
    All of you are here. We welcome all of you. We appreciate 
your efforts. Please limit your testimony to 5 minutes. And 
without objection, your prepared written statements will be 
made part of the record.
    I will now go to Ms. Thunberg for her statement.

    STATEMENT OF GRETA THUNBERG, FOUNDER, FRIDAYS FOR FUTURE

    Ms. Thunberg. My name is Greta Thunberg. I have not come to 
offer any prepared remarks at this hearing. I am instead 
attaching my testimony. It is the IPCC Special Report on Global 
Warming of 1.5 degrees Celsius, the SR 1.5, which was released 
on October 8th, 2018.
    I am submitting this report as my testimony because I do 
not want you to listen to me. I want you to listen to the 
scientists, and I want you to unite behind science, and then I 
want you to take real action.
    Thank you.
    [The prepared statement of Ms. Thunberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Keating. Tack sa mycket.
    Ms. Margolin.

  STATEMENT OF JAMIE MARGOLIN, CO-FOUNDER, THIS IS ZERO HOUR, 
            PLAINTIFF, PIPER V. STATE OF WASHINGTON

    Ms. Margolin. My name is Jamie Margolin, and I am a 17-
year-old climate justice activist from Seattle, Washington. I 
am missing a lot of school to be here. It is my senior year of 
high school. I have college applications deadlines looming over 
me, and to be honest, I have barely even started because I am 
too busy fighting to make sure that I am actually going to have 
the future I am applying to study for.
    You are here spending a few moments with me. But that is 
nothing compared to the hours that Members of Congress have 
spent with lobbyists from corporations that make billions of 
dollars off of the destruction of my generation's future.
    I want the entirety of Congress, in fact, the whole U.S. 
Government, to remember the fear and despair that my generation 
lives with every day, and I want you to hold on to it.
    How do I even begin to convey to you what it feels like to 
know that within my lifetime the destruction that we have 
already seen from the climate crisis will only get worse?
    What adds insult to injury is the fact that we keep getting 
promised what is not there. On college applications, I keep 
getting asked: What do you want to be when you grow up? The 
media, pop culture, businesses, and the whole world tells me 
that I and my whole generation will have something to look 
forward to that we just do not.
    You are promising me lies. Everyone who will walk up to me 
after this testimony saying that I have such a bright future 
ahead of me will be lying to my face.
    It does not matter how talented we are. It does not matter 
how much work we put in, how many dreams we have. The reality 
is my generation has been committed to a planet that is 
collapsing.
    The fact that you are staring at a panel of young people 
testifying before you today pleading for a livable Earth should 
not fill you with pride. It should fill you with shame. Youth 
climate activism should not have to exist.
    We are exhausted because we have tried everything. We have 
built organizations, organized marches, and worked on political 
campaigns. I sued my State government in a lawsuit called Piper 
v. The State of Washington, along with 12 other plaintiffs, for 
contributing to the climate crisis and denying my generation's 
constitutional rights to life, liberty, and property.
    The lawsuit is also arguing that the natural resources of 
my State are protected as a right under the Washington State 
Constitution. The shellfish, salmon, orcas, and all of the 
beautiful wildlife of my Pacific Northwest home is dying due to 
ocean acidification caused by the climate crisis. And 
communities all over Seattle are suffering from the new fossil 
fuel infrastructure being built to lock in decades more of 
climate destruction into my State.
    My friends and I were warned to stay inside the last two 
summers because our city was shrouded in a suffocating smoke 
from wildfires that gave me such bad headaches for so long, and 
my friends with respiratory illnesses had to go to the ER.
    Is this the future that we have to look forward to? Well, 
we youth are working as hard as we can to make sure that it is 
not.
    On July 21 of 2018, after an entire year of nonstop 
organizing, despite being full-time high school students with a 
lot of homework to do, my organization, Zero Hour, marched on 
Washington, DC, in a pouring rainstorm and in 25 cities around 
the world demanding urgent climate action from you and all of 
our leaders. And that was only the beginning.
    By 2030, we will know if we have created the political 
climate that will have allowed us to salvage life on Earth or 
if we acted too late. By then, we must be well on the path to 
climate recovery.
    But this must start today. In fact, it should have started 
yesterday.
    By 2030, I will be old enough to run for Congress and be 
seated right where you guys are sitting right now. By then, we 
need to have already achieved net zero greenhouse gas emissions 
and be rapidly on the path to climate recovery.
    I cannot wait until I am sitting in your seats to change 
the climate crisis. You have to use the seats that you have now 
because by the time I get there, it is going to be way too 
late.
    The good news is that experts agree that there are multiple 
pathways to decarbonize the United States energy system and 
that doing so is both technologically and economically viable 
and beneficial.
    The most frustrating thing is that the U.S. Government 
cannot even begin to imagine the massive political shift that 
has to happen in order for us to solve this issue. The politics 
just has not been invented yet.
    Solving the climate crisis goes against everything that our 
Country was, unfortunately, built on, colonialism, slavery, and 
natural resource extraction. This is why the youth are calling 
for a new era altogether.
    As Greta mentioned, the Intergovernmental Panel on Climate 
Change report that we only have a few months left in order to 
create the massive political shift needed to transition our 
world to an entirely renewable energy economy. This needs to 
happen within the next 10 years, which is our deadline to save 
life as we know it.
    People call my generation Generation Z as if we are the 
last generation. But we are not. We are refusing to be the last 
letter in the alphabet. I am here before the whole country 
today announcing that we are instead Generation GND, the 
Generation of the Green New Deal.
    The only thing that will save us is a whole new era. The 
Green New Deal is not just about the specific plans laid out in 
resolutions, it is about a new chapter in American history and 
transforming our culture into one that celebrates, encourages, 
and enables radical climate action.
    It is right here testifying before you that I am proud to 
announce that history is being made. You have heard of the 
Reagan era, the New Deal era. Well, the youth are bringing 
about the era of the Green New Deal.
    [The prepared statement of Ms. Margolin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    Mr. Keating. Thank you.
    Mr. Barrett.

    STATEMENT OF VIC BARRETT, FELLOW, ALLIANCE FOR CLIMATE 
         EDUCATION, PLAINTIFF, JULIANA V. UNITED STATES

    Mr. Barrett. My name is Vic Barrett. I am 20 years old. And 
I am one of the 21 youth plaintiffs in the Juliana v. United 
States constitutional lawsuit, suing the executive branch of 
the Federal Government for knowingly causing climate change. I 
would like to recognize my fellow co-plaintiffs in this room 
sitting behind me.
    I am a first-generation Garifuna American. My people are an 
afro-indigenous community originally from the island of St. 
Vincent in the Caribbean. In the 18th and 19th centuries, we 
were pushed from our homeland on St. Vincent by British 
colonial power, settling on the eastern coast of Central 
America in Honduras and Belize. Despite overwhelming adversity, 
we organized our community and emancipated ourselves to protect 
our future as a people.
    However, the struggle continues for me and my people. As 
temperatures increase, sea levels rise, storms become more 
intense and frequent, and the coral reefs and fisheries upon 
which we depend disappear, the ocean-front land that my family 
has inhabited for generations, that I am supposed to inherit, 
will be under water if the U.S. Federal Government continues to 
promote a fossil fuel-based energy system.
    It is not just me and my people in Honduras being harmed by 
climate change. Frontline communities around the country and 
around the world are already feeling the effects of the climate 
crisis from the dispossession of land to the grave public 
health threats that are disproportionately affecting myself and 
other young people.
    These frontline communities are made up of people who look 
like me--young, black and brown, LGBTQ, indigenous--identities 
which place them at a significantly higher risk to experience 
the impacts of climate change than the general populace due to 
their marginalized status in our society.
    I, myself, have felt the consequences of climate change 
directly. Growing up in New York, I was impacted by the climate 
change-fueled Hurricane Sandy which left my family and school 
without power for days. I still experience grave anxiety about 
experiencing another climate-driven disaster like Superstorm 
Sandy and the harm that these storms will have on myself and my 
family.
    As someone who already struggles with anxiety and struggles 
with depression from my understanding of climate change and 
what I experience, watching our government knowingly perpetuate 
the climate crisis is extremely overwhelming. I wrestle with 
this anxiety every day from the moment that I wake up in the 
morning to the moment I fall asleep at night.
    If we keep going on with business as usual, both Honduras 
and New York, the places where my family and I are from, will 
forever be lost to the sea. That is one of my greatest fears, 
that climate change is going to take these places away from us.
    My co-plaintiffs also experience both the mental and 
physical health impacts of climate change. My co-plaintiffs 
with asthma and allergies have suffered from the prolonged 
wildfire and allergy seasons in the West, limiting their 
ability to participate in certain activities or even go 
outside. Many of them, like me, are also struggling with 
psychological harms from climate change.
    The medical community now recognizes climate change as a 
grave public health threat. One of our experts describes 
climate change as a public health emergency which is 
disproportionately impacting children and youth in a myriad of 
ways. He lists specific health threats exacerbated by climate 
change, including heat stress, extreme weather events, 
wildfires, decreased air quality, and infectious disease, all 
of which pose a disproportionate threat to children and youth.
    Another one of our experts, Dr. Lise Van Susteren, a 
psychiatrist known nationally for her work on climate change, 
explains that, quote, ``With continued government actions that 
exacerbate the climate crisis, the plaintiffs and those they 
represent will suffer catastrophic emotional injuries.'' She 
goes on to state that the Federal Government's, quote, 
``sanctioning of climate change as lawful in Federal law and 
policymakes the psychological injuries suffered by individuals, 
including the plaintiffs, particularly harmful and insidious.'' 
She warns that without immediate action by the Federal 
Government to address climate change the mental health impacts 
will worsen and be lifelong.
    Just as my Federal Government sanctioned discrimination in 
schools and housing until the middle of the last century, a 
policy that harmed children, my Federal Government has also 
orchestrated and sanctioned a system of fossil fuel energy that 
is harming children in another way, irreversibly threatening 
our health, our personal security, our homes, and our 
communities by creating a dangerous climate system.
    Like youth who have come before us in the civil rights 
movement and other social justice movements, it is often the 
youth that must shine a light on systems of injustice. So in 
2015, 21 young people, myself included, filed a lawsuit against 
the United States and agencies of the executive branch to 
safeguard our constitutional right to life, liberty and 
property, including our rights to personal security, bodily 
integrity, and a stable climate system that sustains our lives 
and liberties.
    I was born into a world in which my future and my past are 
uncertain, born into a world where my culture and inheritance 
are literally slipping into the sea, born into a world where my 
people are going extinct.
    Show children everywhere that you care about our future and 
the future of all generations to come. Now is your time to 
stand in solidarity with me and my co-plaintiffs, America's 
youth, and communities around the world to fight for a just 
future, free from catastrophic climate change.
    Thank you.
    [The prepared statement of Mr. Barrett follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

       
    Mr. Keating. Thank you.
    Mr. Backer.

  STATEMENT OF BENJI BACKER, PRESIDENT, AMERICAN CONSERVATION 
                           COALITION

    Mr. Backer. Good morning. My name is Benji Backer, 
president and founder of the American Conservation Coalition, a 
nonprofit focused on bolstering conservative voices in 
environmental discussions.
    I am also a 21-year old senior at the University of 
Washington in Seattle, and I would like to thank Chairman 
Keating, Ranking Member Kinzinger, Chairman Castor, and Ranking 
Member Graves for holding this very important hearing.
    I am also honored to share this panel with Greta, Vic, and 
Jamie.
    Each of you have played a critical role in generating 
worldwide awareness around this issue of climate change. So 
thank you.
    I am a lifelong conservative activist, but like most of my 
generation, regardless of political affiliation, I believe 
climate change is real. I believe humans are making an impact. 
And with global emissions rising 1.7 percent last year, we are 
at a crossroads in history.
    My generation does not care about the politics around 
climate change. We want productive discussions, realistic 
answers, and sound policies.
    Most importantly, I believe America plays a vital role in 
solving this problem and that we must lead by example. Between 
2005 and 2017, as already mentioned, we led the world in 
emissions reductions, more than the next 12 countries combined. 
However, while our contribution to greenhouse gas emissions is 
declining, we still contribute nearly 15 percent of global 
greenhouse gas emissions, which is second most in the world.
    However, Americans have been told that one-size-fits-all 
approaches, such as the Green New Deal, are the only solution. 
Such policies advocate for an economic transformation that 
increases government control, spending, and regulation. These 
approaches inhibit innovation and are not an effective way to 
reduce emissions.
    In fact, countries with highly restrictive and government-
controlled economies, like Venezuela, have disastrous 
environmental records, and while on the other hand, countries 
leading in emissions reductions have some of the freest 
economic systems in the world.
    We cannot ignore this reality, and the fact of the matter 
is we cannot regulate our way out of climate change. Markets 
and competition reduce emissions far more than heavy-handed 
regulation.
    A truly effective climate plan will capitalize on America's 
strengths: technological advancements, empowered consumers, 
entrepreneurial businesses, effective government, and bold 
global leadership. We need to decarbonize fossil fuel 
emissions, increase the number of nuclear and hydropower 
plants, continue developing solar and wind, and encourage 
research and development into other clean energy technologies.
    It is easier to export innovative American technologies 
than burdensome regulations to developing nations.
    We must also understand the privilege Americans bring into 
this conversation. Across the globe, those who can most easily 
adapt to climate change are wealthy and live in developed 
countries. It is unfair to ask someone to make choices based on 
sustainability when they are struggling to survive.
    As we transition to cleaner energy landscapes in the United 
States and abroad, we need to consider the most vulnerable in 
our world. There are still over one billion people without 
electricity worldwide. Transitioning to clean energy needs to 
happen, but it cannot happen overnight.
    Climate change conversations are often dominated by 
hopelessness and despair. In reality, fighting climate change 
is an opportunity to improve human health, lift people up, and 
grow the economy.
    And I see promising signs. Many bipartisan climate-related 
bills have been introduced and passed in the last 2 years. We 
are reducing emissions and creating remarkable new 
technologies. More Republicans are speaking up than ever 
before.
    This innovation-based approach is not limited to the United 
States either. Just yesterday, the British Conservation 
Alliance, a group inspired by my organization, the ACC, was 
launched by students in the United Kingdom to advocate for 
market-based environmental reforms. We are making strides in 
the right direction, but we must do more.
    Each of us play a critical role in tackling climate change.
    To my fellow conservatives: The climate is changing. It is 
time to claim our seat at the table and develop smart, limited 
government policies to establish American leadership on this 
issue. There is a reasonable conservative approach to climate 
change, and we need to embrace it.
    To those on the left: Without your leadership, this would 
not be receiving the attention that it deserves. But now it is 
time for solutions. Politicizing climate change has deepened 
the partisan divide and delayed real action. If you truly want 
to address climate change, work with conservatives who want to 
champion reforms.
    To Congress: On climate change, it is not about Republicans 
or Democrats. It is about those who are taking effective action 
and those who are not. Our conversations on climate change 
should be about cutting global greenhouse gas emissions, not 
about political pandering.
    To President Trump: Climate science is real. It is not a 
hoax. It is accepted that humans are having a negative impact 
on our climate. As a proud American, as a lifelong 
conservative, and as a young person, I urge you to accept 
climate change for the reality it is and respond accordingly. 
We need your leadership.
    And last, to young people: You have remarkable power. The 
four of us testifying up here today are all under the age of 
22. The world is listening with open ears and hearts to our 
voices and voices just like yours. Stand for what you believe 
in, uplift the world, and do not back down. Climate change is 
about our future, and people need to hear you and us.
    In conclusion, I grew up on the shores of Lake Minocqua in 
northern Wisconsin where I connected with the outdoors early in 
life. Nature is where I find the most peace and calm within 
myself. That is why I founded the American Conservation 
Coalition, to fight for wild places and stop climate change 
from destroying them.
    The health of the environment affects all of us, regardless 
of where we live, our background, or our political affiliation. 
It is time for Americans to join together, find solutions on 
climate change, and protect our planet for generations to come.
    Thank you.
    [The prepared statement of Mr. Backer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Keating. I thank all the witnesses for their testimony, 
and their urgency came through in all of your testimony.
    And I now recognize myself for less than 5 minutes so that 
we can get as many people to ask questions as possible. I will 
start just with Ms. Thunberg.
    You chose to submit the IPCC report in lieu of your written 
testimony. Could you expand on why it is so important to listen 
to the science?
    Ms. Thunberg. Well, I do not see a reason to not listen to 
the science. It is just such a thing that we should be taking 
for granted that we listen to the current best available united 
science. It is just something that everyone should do. This is 
not political opinions, political views, or my opinions, this 
is the science. So, yes.
    Mr. Keating. Thank you.
    In all of your testimony, not just urgency came through 
when I was listening to what you had to say, but as someone 
from another generation listening, the last thing we would want 
for the generations to follow, for our children, grandchildren, 
and other people's children and grandchildren, is to hear in 
some of your remarks actual fear and anxiety being expressed.
    Could you, each of you, you can jump right in as you see 
fit, comment on what that is like? I think that that message 
should be heard by all of us, not just urgency, but what are we 
doing to the next generation? How are their lives impacted by 
what we are not doing and what we are doing?
    So if you could, I will let you just choose among 
yourselves. Each of you will have a chance to answer that 
question.
    Ms. Margolin. For me, it has really been affecting because, 
similar to Vic, I already have, underlying issues of, anxiety, 
and it is just really hard to grow up in a world full of 
``ifs.''
    You know, I do not think a lot of people in Congress 
understand the conversations that are happening in everyday 
American high schools, but we are constantly asked: Prepare for 
your future, study for your future, do this for your future. 
But our world is full of ``ifs.''
    I will be talking to my best friend, and she will say, 
``Yes, you know, I really want to see this natural place 
sometime if it is going to still be around. I really want to 
study to be this if that is still going to be a possibility.''
    And it is just, this constant looming uncertainty. And it 
is a weird form of nihilism and weird just fear that has been 
existing in my generation where kids are joking, what is even, 
is the point? The world is ending. What are we studying for? 
What are we doing?
    And it is this kind of depression, it is this fear that is 
not just among me or my panelists here but everyone, and that 
anxiety is something that no child should ever have to fear.
    Because if you think about it, if you go back to what is 
the purpose of a parent down to just the biological purpose, it 
is to give their child the best future and the best life that 
they can possibly have and the supposed American Dream is to 
make sure that children have a better future than the adults.
    But right now, it is, some members of government and some 
corporations are actively pointing a gun to children's futures 
and actively making it worse, actively going out of their way 
to support corporations and poison us and destroy our future.
    And that is horrifying, and it feels like a betrayal, it is 
like a knife to the heart, to know that people who have kids, 
they will go around in these campaign ads and they will be, 
holding these babies, ``Oh, you should vote for me, look at me 
interacting with a small child,'' while they actively poison 
and choose their wallets over their children.
    So it is very devastating and scary, but also it feels like 
we have been betrayed.
    Mr. Keating. In less than a minute, would anyone else like 
to comment on that?
    Mr. Barrett. Young people are in the midst of their 
development. Adolescence is not characterized as being easy 
without also dealing with the greatest existential threat of 
our time.
    Mr. Backer. I definitely understand and agree with the 
panelists that this is something that a lot of young people 
stress about, and actually that is why I got into this movement 
to begin with in 2016. It was because I thought that it was 
something that Americans needed to tackle and the movement that 
I associated with, the conservative movement, needed to tackle 
as well.
    But the more that I have gotten into this movement, the 
climate change movement, the more that I have seen that this is 
actually a positive, that there is actually a lot of 
opportunity here, that we have time. Science says so.
    That does not mean we do not have to act, but we do have 
time. And we have an opportunity and a chance for people to 
come together on this issue and work across party lines and 
generate economic growth to solve this issue. So I feel 
hopeful.
    Mr. Keating. Great.
    I now yield to the ranking member, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    And I want to thank you all for your testimony, all of you. 
It really was impressive, and I very much appreciate it.
    Ms. Thunberg, you said let's unite behind the science. 
Could not agree with you more. Let's unite behind the science. 
And I think we actually need more science, not less.
    Mr. Backer, you said that we need to stop this partisan 
fighting and actually work together to yield solutions that 
make sense.
    So let me say it again. You have folks that proposed this 
Green New Deal, yet when it is brought up for a vote, nobody 
votes for it. No one.
    You have efforts like last week to stop energy production, 
yet you have letters going out saying, hey, we want you to 
produce more oil in Middle Eastern countries and other nations 
that do not share American values and that have dirtier energy, 
that have higher emissions than in the United States.
    This whole thing is a charade.
    When you actually look at science, Ms. Thunberg, when you 
look at facts, the facts are it was not Waxman-Markey 
legislation here that was designed to require emissions 
reduction that yielded the United States leading the world in 
emissions reduction. It was actually folks doing the right 
thing, stepping in and actually reducing emissions through 
innovation, through energy efficiency, through conservation, to 
where we are leading the world. And in fact, we have beat the 
projections under Waxman-Markey, the mandatory legislation, and 
we have done it with cheaper energy prices. Those are the 
facts.
    Next, going to Mr. Backer. When you look at where we have 
actually made progress, once again, talking about last year, 
worked together, Mr. Sires and I and others on the 
Transportation Committee, where we developed the first 
resiliency standard, bipartisan unanimous bill passed out of 
the committee, where we dedicated record funding to resiliency 
and mitigation.
    And in the United States today, we are spending more 
climate science, technology, and energy solutions than anywhere 
else in the world.
    Those things have been done in a bipartisan manner and are 
actually yielding results, not the charades. These things are 
not yielding anything.
    Ms. Thunberg, let me ask you a question. If you are sailing 
across the ocean and you are picking up trash along the way, 
and every one piece of trash that you pick up there is a boat 
right next to you dumping out five pieces, how would that make 
you feel?
    Ms. Thunberg. First of all, we were going so fast, we would 
not be able to pick up any trash.
    Mr. Graves. All right. Well, if you were a slow sailor like 
me, how would that make you feel?
    Ms. Thunberg. Well, first of all, if you use that logic, 
then I am also dumping a lot of trash in the ocean. And then I 
would stop dumping my trash in the ocean and tell the other 
boat to stop dumping their trash in the ocean as well.
    Mr. Graves. And that is the important point here. I think 
that what we need to be doing is we need to be focusing on the 
countries that are dumping trash in the ocean. Of course, that 
is a metaphor.
    The fact that China is--here we are talking about reducing 
emissions, yet China, under the Paris Accords, are going to be 
increasing their emissions by nearly 50 percent, 5 gigatons 
annually.
    So while in the United States we need to continue investing 
in innovative solutions and exporting clean energy 
technologies, it makes no sense for us to be doing it if we are 
simply watching for increases in China.
    Mr. Backer, the IPCC report talks about numerous solutions 
moving forward, including clean energy and others. Under IPCC, 
does it contemplate only renewable energy sources moving 
forward?
    Mr. Backer. Thank you.
    It actually does not, and I think that it shows a strong 
trend that we need to generate more clean energy going into the 
future, there is no doubt about that, and reduce emissions via 
clean energy technologies. But there is no statement in the 
IPCC report that says that we need to go 100 percent clean to 
reduce emissions at the level that we need to to fix this 
problem.
    Mr. Graves. So moving on from there, if moving forward, 
even under IPCC, it does not contemplate not using any 
conventional fuels moving forward, for the next few decades 
anyway.
    Do you think it makes sense to utilize the fuels from the 
Nation that has the cleanest energy? Or do you think that it 
makes more sense to, for example, use Russian gas that releases 
13 percent greater emissions as we move forward? Which makes 
more sense? Or do you think it makes sense to perhaps get fuels 
from Nigeria that just a few years ago had 2,000 ongoing 
spills?
    Mr. Backer. I think it is important for Americans to 
understand that we do generate fossil fuels cleaner than 
anywhere else in the world. And while the rest of the world 
still relies on fossil fuels, that is an important thing to 
note, I do think while we continue to generate power for the 
rest of the globe and uplift people, we as a Country also start 
transitioning more and more to clean technologies, which I 
think we are starting to do.
    But I do believe that making sure that the rest of the 
world is generating fossil fuels safely is important because it 
is going to be a part of our future, especially today. And the 
United States does do it cleaner than anywhere else in the 
world. That is a fact, and it is something that we have to 
think about.
    Mr. Graves. Thank you. I yield back.
    Mr. Keating. All right.
    Chairwoman Castor.
    Ms. Castor. Mr. Becker, in your testimony you point out 
that the United States must lead by example. And despite recent 
emissions reductions, the United States is currently the second 
highest emitting country in the world annually. And although we 
rank No. 2 now, the United States is responsible for the most 
carbon pollution accumulated in the atmosphere.
    Some people say that the United States should not 
dramatically reduce our emissions because China and other 
countries are not doing enough. I would like to have your view 
on that and have each of the witnesses comment on that briefly.
    Mr. Backer. Yes. I think that is a false approach because 
we have never in history looked at a problem that we contribute 
in the United States and said, well, if it is happening 
somewhere else, then we should not fix it. So I do not think 
that that is a reasonable excuse.
    But I also do think it is important to note that other 
countries are emitting and that we must hold them accountable 
as we hold ourselves accountable.
    America has led on lots of initiatives in the past. You 
have people in Hong Kong waving their flags and singing the 
American National Anthem right now because we inspire them. We 
can do the same thing on climate change.
    Mr. Barrett. Yes. I would say what you said is totally 
correct. The United States contributes to 25 percent of 
historic emissions in the world. And if we are the country that 
we say we are, if we are the leaders that we say we are, we 
need to lead by example here and work on what we are doing here 
so that the rest of the world can follow our lead.
    Ms. Margolin. I have a question. When your children ask 
you, ``Did you do absolutely everything in your power to stop 
the climate crisis, when the storms are getting worse and we 
are seeing all of the effects of the climate crisis?'' when 
they ask you, ``Did you do everything?'' can you really look 
them in the eye and say, ``No, sorry, I could not do anything 
because that country over there did not do anything, so if they 
are not going to do it, then I am not''?
    That is shameful, and that is cowardly, and there is no 
excuse to not take action, to not improve as much as we can in 
the United States.
    And how can we call ourselves the city on a hill or be an 
example for the world if we are going to be coward and hide 
behind waiting for other people, saying that, ``I am not going 
to do this because they did not''?
    I want you to think about this is all about being able to 
look your children in the eye and say, ``I did absolutely 
everything I could for you. I know that we are up against a lot 
of pressure. I know that the time is running out, but, honey,'' 
however you call your kids, ``I did everything I could.''
    And so I just do not understand as a parent how can you 
look your kid in the eye and say, ``There is this impending 
crisis, everything is at stake, but I stood back and I did not 
really do anything. I did not take action. I did not act like 
it was an emergency because our neighbors over there weren't 
doing it, so I am just not going to.'' How can you tell your 
children that?
    Ms. Thunberg. I just--I think I do not need to add anything 
but just another perspective. I am from Sweden, a small 
country, and there it is the same argument: Why should we do 
anything? Just look at the U.S., they say.
    So, just so you know, that is being used against you as 
well.
    Mr. Keating. The chair recognizes Representative Miller.
    Mrs. Miller. Thank you to Chairman Castor and Ranking 
Member Graves as well as to our Foreign Affairs counterparts, 
Chairman Keating and Ranking Member Kinzinger, for hosting us 
today, and I want to say a very special thank you to all of you 
for being here today and for caring so much about our Earth. 
Throughout our work on this committee, I have long said that 
any recommendations that the Select Committee on the Climate 
Crisis makes must ensure that we provide for innovation and not 
taxation. Solutions should work to reduce our carbon footprint 
but not come at the detriment of increased cost for consumers.
    Mr. Backer, I want to thank you for your leadership and 
your candor. We all must do whatever we can and do our part to 
take care of our beautiful world. In your testimony, you 
discussed how we cannot regulate our way out of climate change. 
What are some of the ways that we can better utilize technology 
and increase innovation?
    Mr. Backer. Thank you. If we really want to focus on 
reducing emissions, which I think we all agree is the end goal 
that we are talking about here today, it needs to be about the 
results, and the results can come from innovation like you are 
alluding to. If you look at the technologies that we can have 
around carbon capture, taking carbon emissions out of the air 
from fossil-fuel-emitting plants and being able to put that 
into the Earth or reuse it for another type of product or you 
look at the shifts in the transportation sector to transition 
to cleaner cars and cleaner technologies, that is the example 
of things that we can do across the globe and continue 
innovating because innovation, like I mentioned in my 
testimony, is something that we can export to other countries 
very, very easily because it creates jobs, it is more 
efficient, and it ends up helping the economy. A great example 
of this is 194 of the world's largest companies have pledged to 
go 100 percent renewable by 2030, 2040, or even sooner than 
that. They are doing that because it is more cheap, it is more 
efficient, and it helps their consumers. It has done that 
because of innovation. And if we put regulations on different 
industries, we are not going to be solving the problem. We need 
to work on decarbonizing fossil fuel and reducing emissions 
now, and we cannot do that with regulation. We can only do that 
through innovation. We need to innovate our way out of the 
climate change problem.
    Mrs. Miller. Thank you.
    I yield back my time.
    Mr. Keating. Vice Chairwoman Spanberger.
    Ms. Spanberger. Thank you very much. Thank you all for 
being here. I hold your commitment to fighting for the future 
generations of this planet in the highest esteem, and I am 
grateful for the attention you are bringing to these critical 
issues throughout your advocacy. Ms. Thunberg, in your speech 
to U.N. Secretary General Antonio Guterres on climate change, 
you said, we are facing an existential threat, and I agree.
    The scientific consensus is clear, climate change is real. 
Its affects, including changes to rainfall and farmers' growing 
seasons, sea-level rise along our coasts, and exacerbation of 
conflicts abroad are a threat to us all. In fact, our 
intelligence community and two former Secretaries of Defense 
have cited climate change as a root cause and driver of 
instability and global threats, making it not just a moral 
imperative, but a national security imperative as well. I am 
curious, in your travels as an activist and as an advocate, 
have you heard stories, or have you engaged with those who are 
focused on the issues of how climate change and the instability 
it causes internationally are impacting security issues and how 
those might impact our future generations?
    Ms. Thunberg. I have, of course, met many people who have 
experienced environmental and climate-related disasters and who 
try to help people to come back from that, and I have not been 
meeting so much with people who have told me stories about it 
being a national security threat because I simply have not had 
enough time to do that. There are so many people to meet and so 
many stories to hear, so I cannot listen to them all. But I 
imagine maybe one of the others have.
    It does not seem like they have either. So maybe then you 
should talk to someone who is an expert in that area.
    Ms. Spanberger. And you mentioned, apart from the security 
aspect of things, that you have spoken with many who have faced 
disasters at home due to global climate change. Could you, 
perhaps, give a couple of examples just for the committee to 
hear, of the stories you have heard?
    Ms. Thunberg. Yes. I have met people whose communities were 
simply--whose neighborhoods were destroyed by natural 
disasters, who were amplified by the climate crisis. I have met 
people whose food and water supply is being threatened by 
environmental or climate-related catastrophes. And it is just--
it is so sad that I--it is so incredibly many people, so 
incredibly many examples, that it is just horrible because so 
many who have experienced this and so many who are suffering 
from this today. And, I mean, we are already seeing the 
consequence--unacceptable consequences of this today, and it 
will only get worse the longer we delay action, unless we start 
to act now.
    Ms. Spanberger. Thank you very much.
    Ms. Margolin. I would also look like to add, answering that 
question, I would like to acknowledge that we have some Amazon 
protectors in the room right now, who are fighting to protect 
the Amazon rainforest, and that is a place in the world where 
people are gravely suffering, not exactly from climate change 
itself, but from the causes of the climate crisis. The animal 
agriculture industry is behind--and the collusion of the animal 
agriculture industry with the governments of Brazil and other 
countries that would rather make a short-term profit than 
protect the lungs of our planet. The Amazon rainforest is the 
lungs of our planet, and that is why we are seeing these 
massive fires, and it is indigenous protectors like the ones 
here sitting, who have been fighting, literally putting their 
bodies on the line and suffering from these fires, and I want 
to speak for them, because I do not know their own stories, but 
I encourage you, talk to them later.
    But I think it is also very important that, as we speak 
from an American perspective, we also realize that the climate 
crisis is global and that, even though maybe--you know, for me 
personally, I have Latin American roots in that my family is 
from Colombia, but even if you do not have those roots in Latin 
America, the Amazon rainforest is the lungs of our planet. And 
so it burning down, we must unite with Latin America, and we 
must unite with the indigenous activists and listen to them and 
give them a platform. And also not perpetuate the same systems 
of oppression that have been pushing them down because it is--
and I do not want to speak for this, and I do not know if you 
have anything to add, but it is the same systems of oppression 
that are causing the climate crisis that are making people feel 
the worst effects.
    To add to something that I heard earlier, I just want to 
say real quick--I realize my time is running out--but Albert 
Einstein defined insanity as trying to solve an issue with the 
same thinking that caused it. And right now something that has 
been disturbing me a lot is seeing the way that we are trying 
to colonize and buy and sell our way out of a problem caused by 
colonization and buying and selling.
    Ms. Spanberger. Thank you, Mr. Chairman.
    I am over time. I yield back.
    Mr. Keating. Representative Burchett.
    Mr. Burchett. Thank you, Mr. Chairman.
    I really do not have any prepared notes. I was sitting 
there just thinking, in 1977, I was confronted with a problem. 
I was--my father used to grow tomatoes--oh, Mr. Chairman, I 
appreciate you and the vice chairman and everybody for allowing 
us to be here. I meant to do the protocol first, I apologize, 
but--and I was--my father used to grow these tomatoes. He would 
get about a half a dozen tomatoes, and he would put about $20 
in chemicals and all kinds of nasty stuff. And I thought to 
myself, you know, I am putting that stuff in my body. And I 
thought, there has got to be a better solution, and I stopped 
a--it is called KUB, Knoxville Utility Board. They used to cut 
all the trees that were growing on the power lines, and they 
would grind them up, usually about 6 o'clock in the morning and 
wake us all up. And I stopped and asked one of those guys one 
time, I said: Hey, what do you you all do with that stuff?
    And they said: Well, we take--you got to realize this is 
1977, OK? I was in--I was in between my seventh and eighth 
grade years. And he said: We take it to the landfill.
    And I said: Well, how much do they pay you for it?
    And they said: We do not. We pay them to take it.
    And so the wheels started turning in my head. And at that 
point, I became a capitalist. I realized that there was money 
to be made. You could save the environment. At that time, it 
saved about 25 percent of the landfill space in our community, 
and I got into that business. But I want--and I have realized 
now that, of our trash stream, about 85 percent of that is 
compostable. It does not have to go into a landfill. And when 
it goes into landfill, everybody just--a lot of people think it 
just goes away. It does not go away. It creates all kinds of 
bad things for the environment. The gases, one of the most 
feared gases is methane, is when something decomposes in an 
anaerobic, or in the absence of oxygen. So, if we could compost 
those things, 85 percent of that waste stream could be turned 
back into soil, which would be utilized, I think, in a 
capitalist manner.
    And you wonder about capitalism. Well, I had the 
opportunity, I was sitting there with AOC, and I was pitching 
to her capitalism. I do not really know if it caught on with 
her or not, but my point was this. I said: You want to do away 
with airplanes--well, airplane engines that put out gases that 
are harmful to the environment. And I said: MIT right now has 
an airplane engine that has no moving parts and allegedly puts 
nothing harmful into the environment. No moving parts. And to 
me, that is just Buck Rogers, but I got on YouTube, and I 
watched the video, and I watched it--you all could probably 
understand it, but my 55-year-old brain just does not 
understand it. But it is fascinating to me. But, granted, all 
it did was fly a glider about the length of a football field. 
Well, I got to thinking, this little cell phone right here, 20 
years ago, according to my friends at Oak Ridge National 
Laboratory, was a hundred million dollar computer. Twenty years 
ago. Capitalism brought this, now everybody basically has a 
television studio, can get to all the information in the world, 
can contact anybody in the world for about, I do not know, 
about a hundred bucks a month, and it is a pretty good deal, 
and that was through capitalism. And I would encourage you all 
to explore that, that realm of our economy. I have a piece of 
legislation, and I would encourage you all, I would like to 
hear from each one of you all, what you all think about it. It 
is called carbon capture. It is a capitalist view of capturing 
carbon and utilizing it. And it is House Resolution 3861, and I 
would encourage you all, not now, look it up, get on your 
little computers, you all know how to use them better than I 
do. Somebody will show me when I get your email, and I would 
encourage you all to read that and see what it is. And I 
applaud you all for being here, I applaud your enthusiasm and I 
am incredibly proud that you are this concerned about our 
environment and our world, and thank you all so much for being 
here.
    Mr. Chairman, I yield back the remainder of my 55 seconds.
    Mr. Keating. Well, thank you.
    Representative Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman, and to all of 
the chairs and ranking members for bringing us together today, 
to all of the panelists who are witnesses who are here with us 
today, I want to thank you as well. Before I begin my 
questions, though, I just want to remind my colleagues that 
those mobile phones that were once too big or a desktop that 
weighed thousands of pounds, they got smaller because of a 
Federal taxpayer investment by the United States of America, 
investing in the research. So I hope that there is an openness 
and a willingness that we take the same step. Let's put our 
money where our mouth is. Let's make sure that we are investing 
those dollars and we are answering this call.
    And, Ms. Thunberg, I appreciate the power of your 
testimony. You laid it out in a document right in front of us, 
a document where experts and scientists have laid out the path 
in the road for the world to take policy action. It is simple. 
The work has been done for us. We just have to follow that 
path. So I want to thank you for that.
    Now, I do not want to have to defend one of my colleagues 
as well, she can defend herself, as we all know. Congressman 
Cortez--or Congresswoman Alexandria Ocasio-Cortez has not said 
that she wants to stop air travel. Her policies have said: 
Let's do better. Let's act.
    And I think that is what we are here to do. So I apologize; 
I took a little bit of my time to respond to some of the 
statements that were said earlier, but I thought it was 
important.
    So, Ms. Thunberg, when I was your age, the concentration of 
CO2 in the atmosphere was 350 parts per million. This year, we 
eclipsed 415 parts per million. I am going to try to make some 
sense out of this. What many scientists have said is that we 
only can get to 430 parts per million to get to an increase of 
1.5 degrees or to be able to even hold at 1.5 degrees increase. 
If we get to 450 parts per million, again we are at 415 
already, that gets us to two degrees. Let me share what that 
means. With 1.5 degrees, 14 percent of the global population 
will face extreme heat. At 2 percent, it is 37 percent. At 1.5 
degrees, we will see an ice-free Arctic once every hundred 
years. At two degrees, we see it every 10 years. At 1.5 
degrees, our fisheries decline by 1.5 million tons, and our 
coral reefs decline by at least 70 percent. At 2 degrees, our 
fisheries will decline by twice that, and we will lose 99 
percent of our coral reefs. We see the difference between what 
is devastating and what is even beyond what devastating can 
even be described as.
    Ms. Thunberg, the science could not be more clear. If we 
wait, the climate crisis will only be more devastating. Just a 
year ago, you were protesting outside the Swedish Parliament. 
Now you are part of an international coalition of young people 
demanding action. I asked a few students that I had the honor 
of working with in New Mexico, and one of them responded. Her 
name is Marina Weber Stevens. She is one of the founding 
members of the Global Warming Express. Anyone that is 
interested can find them at theglobalwarmingexpress.org. And 
she asked a very important question, but one that I think you 
have an answer to, and it is this: What is the best way to get 
the younger generations, teens and students, involved in 
advocacy to address the climate crisis? And I would add to 
that, adults. What can we be doing? How can we get more young 
people involved?
    Ms. Thunberg. How we can get more young people involved, I 
think to just tell them the truth, tell them how it is and--
because when I found out how it actually was, that made me 
furious so I was--I wanted to do something about it. And that 
is the--at least I have spoken to many, and I think that is the 
experience many others have. Because as it is now, people in 
general do not seem to be very aware of the actual science and 
how severe this crisis actually is. So I just think we need to 
inform them and start treating this crisis like the existential 
emergency it is. Then I think people will understand and want 
to do something about it.
    Mr. Lujan. And that is powerful. Tell them the truth.
    With that, I yield back.
    Mr. Keating. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    And let me begin by thanking all four of you for being 
here. I cannot tell you how much this builds up my confidence 
in the younger generation, having you involved in this. It is 
extremely important that you be involved in the process, and I 
applaud you for being here, and I thank you for being here.
    I am going to start with you, Mr. Backer. It is really good 
to see someone who is interested in such an important project, 
or such an important topic, I should say, and also who 
understands that we need to factor in the economy in this and 
the economic impact that something like this could have. Do you 
think that the state of our economy and the need to maintain a 
robust economy--because, after all, you are all going to be 
participating in our economy. In a way you already are, but in 
the future, you will be even more. It is important that we have 
a robust economy so that we will be able to provide jobs for 
young people and for all of our citizens. But do you think it 
is important to consider that when we are considering climate 
change?
    Mr. Backer. Thank you, Mr. Carter, and also thank you for 
being a member of the Roosevelt Conservation Caucus. It is a 
caucus started by Republicans focused on bringing Conservatives 
back to environmental discussions. It is a major step forward, 
so thank you.
    So the economy definitely needs to be a part of this 
conversation because if we do not take the economy into 
consideration, we are leaving the people who are at the most 
risk at--we are keeping them at the most risk. We are allowing 
people who are in the lower poverty levels to be affected the 
most by our policies. There is an opportunity, a strong 
opportunity, to be economically sensible and environmentally 
sensible. Economic sustainability and environmental 
sustainability do go hand in hand. And I think a lot of people 
who are on this issue and believe that this is a topic that is 
of importance, believe that the agricultural industry, 
corporations, and fossil fuels, are a lot of times the enemy. 
But they are part of our society. And they are today, and they 
will be for the next--at least for the short-term. And so, if 
we want to lower emissions and we want to have a clean-air 
economy, we have to work with people, instead of against 
people. Because the only way that we are going to truly reduce 
emissions is to do that. And that is true with the economy. 
Because we cannot have a strong environment without a strong 
economy, and the worldwide statistics show, as I mentioned 
earlier, that the most free economies are the cleanest in the 
world. Does that mean that they are done and that they do not 
have to do more? Not in the slightest, but economic success and 
environmental success go hand in hand.
    Mr. Carter. OK. If I could--and I will let you in just a 
second. I want to show you something on the screen, if we can 
get it up. It is a chart that the EPA has put out--are we going 
to be able to do it? Just hold it up. You want me to hold it 
up. OK. All right. Are you going to be able to get this? OK. 
Well, unfortunately, you cannot see it very well, but it is a 
chart that the EPA put out in 2018, and it shows the growth of 
our economy since 1970. And the United States has actually 
grown our economy. Our gross domestic product has grown almost 
300 percent. Our vehicles miles traveled has grown almost 200 
percent. Population has grown. Energy consumption has grown. 
But our carbon output has decreased over that period of time. 
So it is possible to do. We can grow our economy and decrease 
our carbon output. We have done that since 1970. In fact, if 
you look, we have actually decreased the six common pollutants 
almost a hundred percent since 1970, while growing our economy. 
So it can be done. One thing I want to make sure we understand 
is that, look, look, listen to me: This is not a Republican-
Democratic issue. This is an American issue. This is a world 
issue. It is not United States versus China versus India. All 
of us have to work on this together.
    I have always--I believe in climate change. I believe the 
climate's been changing since day one. I am old enough to 
remember--you are not--but I am old enough to remember the 
early 1970's when we thought we were headed for another Ice 
Age. Well, does man have an impact on that? Yes, we do have an 
impact. How much? That might be debatable. However, we should 
do something. And that is one of the things that I am so 
excited about.
    And, Mr. Backer, you mentioned this about the opportunities 
that exist here because I have always said, we have got to have 
three things. We got to have innovation. We have got to have 
mitigation. And we have got to have adaptation. And that 
innovation, the greatest innovators, the greatest scientists in 
the world are right here in the United States of America. That 
is why I am excited about us leading the way. And I think we 
can lead the way. Yes, we have got much to be done; there is no 
question about that.
    You also mentioned about agriculture. I represent a very 
rural area in south Georgia. The rural community is going to 
play a big part in this. We cannot leave them behind. That is 
going to be very important as well. We have to be very careful. 
My message is simple. And that is that, yes, this is something 
we have to deal with, but we cannot destroy our economy when we 
are dealing with it. We have to keep that in mind. We have to 
have affordable, reliable, clean energy.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Keating. Well, thank you. As we said before, we have a 
hard stop. So here is what I want to just do in closing--there 
will be no closing statements, which will allow whatever time 
is limited. I do want to recognize Representative Brownley who 
has been here, paying great attention throughout the whole 
hearing; Representative Levin; Representative Titus; 
Representative Omar, in the case that we may not have the 
opportunity because you do have to leave. So I will now 
recognize Representative Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Thank you for this 
very, very timely and important hearing. Climate change is 
undoubtedly an economic threat--that is true; a national 
security threat--that is true; and, ultimately, and most 
importantly, an existential threat. It has battered our coasts 
and set our forests ablaze. In my home State, Mr. Barrett's 
home State of New York, Superstorm Sandy destroyed the property 
and uprooted the lives of thousands of New Yorkers, including 
many living in my district.
    If left unabated, climate change will displace world 
populations. Islands, Mr. Barrett, you are correct, will be 
gone, where people currently live. And it will continue to 
wreak havoc on our own, costing billions in damage. That is 
economics if we are not prepared. It will be billions of 
dollars that will cause economic damage if we do not do 
something about climate change. It will also--climate change 
threatens to undue the last 50 years of progress in 
development, in global health, and poverty reduction. So we 
have got to do something, urgently.
    If the world that we leave behind--and we all hold this 
world in trust for the next generation. So I look at it, the 
world that I leave behind for my new baby granddaughter, will 
look dramatically different if we do nothing today. Indeed, a 
drastic reduction in our carbon footprint will be one of, if 
not the most, important missions of our time.
    I also want to say--and I heard Ms. Margolin say this a 
number of times--I just want to let you know that anxiety 
research, indeed, shows that young people have high levels of 
anxiety. It is not, though, just because of climate change. 
Everything from the economics to health disparities to student 
loans, et cetera. Of course, climate change is compounding that 
problem. But what you are doing by being here and leading does 
make a difference. And I just used the example of one of my 
colleagues who, at 16 years old, helped change and shape a 
Nation. His name was John Lewis. He put his life on the line. 
He had a lot of anxiety if you talk to him. But by doing this 
with that anxiety and turning that anxiety into something that 
you are going to lead, to change, it makes the world a better 
place for all of us. So I compliment you on how you are using 
your anxiety to make a difference in the world. That is 
something that is so important, and, indeed, yes, all young 
folks--I am old enough to remember the civil rights movement, 
when it was led by students, and high school students, who 
said, I am sick and tired of being sick and tired. And they 
changed things. So believe this: that each and every one of 
you--Mr. Backer, I have been listening to you. You are part of 
a change that is going to make us all better, make this Nation 
and this world better. One of the things--we will fight back 
and forth, but guess what, I still bet on America. We will go 
through some of the bad times, because Lord knows I have seen 
bad times, and I have seen us come through it.
    So I want to say to each and every one of you: Do not give 
up on America because what America is all about is that, if we 
stand up and fight, if we stand up for what we believe in, we 
will change things. It does make a difference.
    It is the reason why I can sit here, Mr. Barrett, because I 
have seen my father go through some terrible times as an 
African American, and then I saw Barack Obama become President 
of the United States. Not just for Black folks, but for all 
folks. Keep up your work; you will make this place we call 
Earth not only exist but thrive and be a better place, and I 
yield back.
    Mr. Keating. Well, thank you. Thank you for your 
extraordinary testimony. It makes a difference. It will make a 
difference, and, by the way, it is bipartisan and based on 
science. Thank you for being here.
    We also want to thank Representative Costa who has been 
here, too, as well. So you stayed later than you agreed to. I 
know how hard pressed you are. So, if we could just ask those 
in the audience and the press, allow the witnesses to go to the 
anteroom, where we came in from, so that you can get to your 
next place more quickly. So, please, remain seated, allow the 
witnesses to go to the ante room so that they can have an 
expedited way back to their next meeting which they agreed to 
stay longer to hear our testimony.
    With that, I adjourn this hearing. Thank you.
    [Whereupon, at 11:37 a.m., the committees were adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       STATMENTS FOR THE RRCORD SUBMITTED FROM COMMITTEE MEMBERS
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


       ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             



                                 <all>
</pre></body></html>
